Timothy Posnanski
Partner
555 East Wells Street, Suite 1900
Milwaukee, WI 53202-3819
Direct: 414.978.5791
Fax: 414.223.5000
timothy.posnanski@huschblackwell.com

December 13, 2019

VIA ELECTRONIC FILING AND OVERNIGHT DELIVERY
Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street N.E.
Washington, D.C. 20543
Re:

Lloyd Johnson, Petitioner v. Karen Rimmer, et al.
Case No. 19-701

Dear Mr. Harris:
I am writing to request a thirty day extension of time, up to and including February 3,
2020 for the filing of a Brief in Opposition to the petition for certiorari filed in the case of Lloyd
Johnson v. Karen Rimmer, et al., United States Court of Appeals Case No. 18-1321, currently
due on January 2, 2020. Respondents Thomas Harding, David Machery, Remedios Azcueta,
Tony Thrasher, and Ade George request additional time to file the Brief in Opposition due to the
schedule demands of both professional commitments and the upcoming holiday season, which
would preclude Respondents from devoting the time necessary to adequately respond to the
petition without an extension. Thank you for your consideration of this request.
Very truly yours,

Timothy Posnanski
Partner
THP
cc:

Via Electronic Filing and U.S. Mail
Robert E. Barnes
Barnes Law
601 South Figueroa Street, Suite 4050
Los Angeles, CA 90017

Husch Blackwell LLP
DocID: 4813-9432-0558.1

